                                         OFFICE OF INSPECTOR GENERAL
                                           OFFICE OF INVESTIGATIONS

                                    CLOSEOUT MEMORANDUM

Case Number: A12090064                                                       Page 1 ofl


         Through an OIG proactive review, we identified a proposal with copied text. The
         attached Report of Investigation describes our investigation that resulted in NSF
         making a finding of research misconduct. The closeout documents consist of this
         Memorandum, our report, and NSF's adjudication. This case is closed with no
         further action taken.




NSF OIG Form 2 (11/02)
Sensitive                                                           Sensitive



        National Science Foundation
         Office of Inspector General




                  Report of Investigation
                 Case Number A12090064

                          August 21, 2013

                 This Report of Investigation is provided to you
                            FOR OFFICIAL USE ONLY.
  It contains protected personal information, the unauthorized disclosure of which
  may result in personal criminal liability under the Privacy Act, 5 U.S.C. § 552a.
  This report may be further disclosed within NSF only to individuals who must
  have knowledge of its contents to facilitate NSF's assessment and resolution of
  this matter. This report may be disclosed outside NSF only under the Freedom of
  Information and Privacy Acts, 5 U.S.C. §§ 552 & 552a. Please take appropriate
  precautions handling this report of investigation.
NSF OIG Form 22b (1113)
                                                                                                   Executive Summary
       OIG's investigation identified a proposal that appeared to have 115 lines and
2 tables copied without appropriate attribution, i.e., plagiarism. The Subject's
explanation to our inquiry did not dispel the allegation, so we proceeded with our
investigation. After reviewing other documents for a pattern of plagiarism, we
again wrote to the Subject to request clarification of his earlier response and
additional explanation for the copied text. The Subject's explanation did not
mitigate the act of using plagiarized material in his proposal. Therefore, we
concluded by a preponderance of the evidence standard that the Subject committed
plagiarism, did so knowingly, and the subject's plagiarism represents a significant
departure; hence, we concluded the subject committed research misconduct. We
""o'""''·vn-Ylo-nrl
..i...VVV.L.L.L..i...J...LV.L..j._\...'"-.
                                     ,.L_';I;.._.t....i....
                                                               -hnrl~ncr nf
                                           1\T.QH' rn<:>lro <> .L.i...i...i.'-A.-.L...._-"-h
                                                              .i...i...Lil..A..L::L"'--'     ..._,_._ -.-oC>o<:>-.-r>h
                                                                                           L..IL
                                                                                                                                                rn~C>r>nnrln,-.t ........._b........__.__._.._.._,._.
                                                                                                      _.._..__,lo.J.._.,........__._'-J...._.A. ...._..._...._..._._,..._,,._,....._...._"-"""""'-"-'V ,::~cr,::~~n.;,t t"ho ~11hior>t
                                                                                                                                                                                                    v.=...=..'-J   p.._~.....-_....._,j..,_,.'-'...,,
                                                                                                                                                                                                                                                        1•onni1•o
                                                                                                                                                                                                                                                        -=--"'--''-!_.._,.._,..,_..:........,-


the Subject to take an RCR course, and provide certifications for 1 year, as
described in detail in this report of investigation.


                                                                                              OIG's Inguiry and Investigation
                                                                                                                    Inquiry
       Through our proactive review, we identified an NSF-funded proposall that
contained approximately 100 lines of copied text from 8 sources. 2 The proposal
listed a PI and two co-Pis. Three of the sources are neither cited nor referenced in
the proposal. Five of the sources are listed in the reference section, but only two of
those were cited near the copied text. 3 None of the copied text was offset or
distinguished so as to enable a reader to differentiate the PI and co-Pis' own text
from the copied text.
      We contacted the three authors, co-PI1 4 (the Subject), co-PI25, and the PI6, to
inquire about the allegation of plagiarism. 7 The PIS and co-PI29 both identified the
Subject as the contributor of the questioned material.           The SubjectlO took
responsibility for the copied text in the proposal. He maintained the copied text was
due to his difficulty with English, time pressures, and his lack of familiarity with




                                 are
         3   Sources 1, 4, 5, 6, and 8 were in the reference section. Only sources 1 and 4 were cited to the




                                                                                                                                                                were sent to the PI and co-PI2.

        9    Tab 5
        10   Tab 6


                                                                                                                                                                                                                                                                                      2
    the NSF Grant Proposal Guide. Further, he said the budget for the project was
    reduced to a point where his sections of the proposal were not being performed.
    Consequently, his collaboration on the awarded project has ended, and no funds
    were transferred to the Subject or his institution.
           The Subject identified additional copied text in the proposal, and the three
    additional sources from which he copied without proper attribution_l 1 One source is
    neither cited nor referenced in the proposaL The other two sources are listed in the
    references and cited near the copied text, but none of the copied text is offset or
    distinguished in any way, so a reader would not know the copied text was not the
I   Subject's.
          We found the Subject's explanation inadequate to dispel the allegation and
    determined there was sufficient substance to proceed to an investigation. After a
    phone conversation 12 with the Acting RIO at the Subject's institution, it was agreed
    that NSF OIG would take the lead in this case. Consequently, we conducted our
    own investigation_13
                                              Investigation
            We sent the Subject a second letter requesting clarification of his comments,
    specifically his comments about not being aware of NSF's requirements. 14 In his
    reply, 15 the Subject clarified that although he had consulted NSF's Grant
    Proposal Guide during the preparation of his proposal, he more closely followed
    guidelines recommended for submitting manuscripts to professional society
    journals. The Subject included with his response an example 16 with a number of
    sections highlighted_17     The Subject argued these guidelines support his
    contention that proper citation requires placing "greater efforts to cite the
    author's original peer-reviewed publications as much as possible over a
    secondary source" . 18   The Subject also used this argument to rationalize
    including embedded references within his copied, verbatim text.
          The Subject noted "this is an isolated instance, partly due to [his]
    inexperience", but acknowledged he "must assume full responsibility for my
    oversights for not making proper attribution" . 19 He asserted "the omission in


        11 Tab 7 contains the re-annotated proposal to include the sources identified by the Subject.
        12 OIG's Director of Administrative Investigations spoke w i t h - ' s Acting Research Integrity
    Officer on January 29, 2013.
        1s 45 C.F.R § 689.5(£).
        14 Tab 8

        15 Tab 9
        16 Tab 10;

        17 Including        ays c1te          source                ; "Only references generally available
    through libraries should be listed in Literature Cited"; and "For literature citations of publications
    available or referenced online that were originally published in traditional print form, the original
    printed version should be cited."
        1s Tab 9, p. 1
        19 Id., p. 13 [of the pdf] ·




                                                                                                        3
attributions were not intentionally, knowingly, or recklessly done to avoid
providing proper citations" _2o
       We noted the Subject's C.V. indicated he earned a Ph.D. from a U.S.
university, 21 so we asked the Subject if he received any training on the
responsible conduct of research while there. The Subject said such training was
not commonly available for graduate students at that time. He pointed out the
difference in the documents and situations, but he acknowledged "the attribution
I provided in the proposal was poor and it would not meet the citation standard
at [the University] for my thesis."22


                                       OIG's Assessment
       NSF's Research Misconduct Regulation states that a finding of misconduct
requires: (1) there be a significant departure from accepted practices of the
relevant research community; (2) the research misconduct be committed
intentionally, or knowingly, or recklessly; and (3) the allegation be proven by a
preponderance of the evidence. 23
       The Subject justified his use others' verbatim text without appropriate
citation by arguing he relied on the publication standards of professional society
journals that place greater emphasis on original, rather than secondary,
publications. This argument is fallacious: the guidance suggests it is preferable
to cite original research results, as opposed to, e.g., a review article. In this case,
when the Subject copied material from a source, that source is the original
source of the text and should be cited. To copy an author's words, and justify
depriving this author of appropriate credit by arguing the source from which the
Subject copied is not the original source of the idea or result those words describe
is disingenuous and could be used to justify copying the entirety of review
articles and the background section of any paper without attribution.
       The Subject argued the two tables copied from Source 5 24 were "not exactly
copied from the source". 25 He asserted he made the tables his own by adding a
column and, because he copied all the original data into his table, which included
the original citations to the data, additional citation to the copied table could be
considered redundant. The Subject's claim, that he cited the original source, so
further citation is redundant, is duplicitous-the tables he copied contained a



   21---
   20~


   22   Tab 9, p. 6
   2s 45 C.F.R. §689.2(c).
   24  Due to a mislabeling of source numbers, the source numbers the Subject refers to are different
from the source numbers in Tabs 2 and 9. The Subject's source numbers (SN) are related to the
current numbers (CN) by the following translation: SN1=CN8, SN2=CN4, SN3=CN7, SN4=CN5,
SN5=CN2, SN6=CN3, SN7=CN6, and SN8=CN1.
    25 Tab 9, p. 5




                                                                                                   4
"Reference" column, and the source authors contributed original data to the table,
so that original data are referenced, as all other data are, in that column. 26 There is
no additional, separate citation to the source for the copied table. Further, this
explanation completely disregards the amount of work required of the source
authors to create the table, and properly cite the source material, in their original
publication. Similarly, the Subject noted he is aware of when it is necessary to
properly cite and provided an example of proper citation. 27 He illustrated this point
by noting the second half of paragraph, in which the first half was copied, was not
copied and contained citations to the sources. 28
       We conclude the Subject, by not citing the sources from which he copied,
and not distinguishing that text from his own, failed to provide appropriate
credit to the authors he copied. Therefore, we conclude the Subject's act meets
NSF's definition of plagiarism.


                                              The Act
       The Subject copied approximately 115 lines of text and 2 tables from 11
different source documents in his NSF proposal. As described above, by failing to
appropriately distinguish verbatim copied material
                                              I
                                                   from his own original material,
the Subject presented the work of others as his own work and, thus, failed to give
appropriate credit to the original authors, which meets NSF's definition of
plagiarism.


                                              Intent
       The Subject claimed he did not intend to omit attributions, but his use of
embedded references29 demonstrate that he knew he was copying text without
providing attribution to the source from which he copied it. His incorporation of
text into the body of his proposal demonstrated his intent to use others' words as his
own. The Subject claimed a lack of knowledge about how to properly cite, but, as
noted above, the fact that he provided an example of properly cited text to
"showcase an example of proper attribution to specific information or ideas,"30
completely undermines his assertion that inexperience or a lack of knowledge
excuses his lack of appropriate citation practices. Additionally, the Subject knew
his failure to cite the sources of his plagiarized material would not have been
acceptable when writing his thesis. Therefore, we conclude the Subject acted
knowingly when he copied text and tables into his proposal.


   26    Compare Source 5 (Tab 2, p. 5 & 9) to Tab 7, p. 9.
   27    Tab 9, p. 3
     28 The text to which the Subject refers is Tab 7, p. 8.

     2 9 Embedded references are citations copied with the text and make it appear the text was cited

to those embedded references, rather than the source from which the text was actually copied.
     30 Tab 9, p. 3




                                                                                                   5
                                    Significant Departure
      By a preponderance of evidence standard, we conclude the Subject
knowingly plagiarized text and tables into his proposal.             The Subject
misrepresented the journal guidelines he followed, and research journals
consider plagiarism a violation of their standards of publication. 31 The Subject
acknowledged his citation practice would not have been acceptable at the
University. The Subject copied approximately 115 lines of text and 2 tables,
which is a significant departure from community and NSF standards. Thus, we
conclude the Subject significantly departed from the accepted practices of his
graduate university, his research community, and NSF.
      Accordingly, since we conclude the Subject knowingly plagiarized and the
plagiarism was a significant departure from accepted standards, we conclude the
Subject committed research misconduct.


                           OIG's Recommended Disposition
      In deciding what actions are appropriate when making a finding of research
misconduct, NSF must consider several factors. These factors include how serious
the misconduct was; degree of intent; whether it was an isolated event or part of a
pattern; its impact on the research record; and other relevant circumstances. 32
                                          Seriousness
      Plagiarism violates research integrity and is a significant departure from
accepted practices in the research community. We CQnclude the amount of
plagiarized material IS sufficiently serious to warrant a finding of research
misconduct.
                               Impact on the Research Record
      The effect on the research record as a result of the Subject's actions is
moderate. Because the proposal was funded, the proposal, including the plagiarized
text and tables, IS available to the public through a Freedom of Information Act
request.
                                            Pattern
        We found no evidence of pattern of plagiarism.




   31 See, for example, the Journal of Virology, Plant Disease and other journals of The American
Phytopathological Society, and PLOS One. The Subject has published in these journals.
   3z 45 C.F.R. §689.3(b)




                                                                                               6
                              Subject's response to draft ROI
       The Subject responded 33 by apologizing for his poor judgment. He confirmed
our conclusion that this was an isolated incident. He reiterated that, due to budget
and scope restructuring, his part of the project was removed and no funding went to
his lab. He recognized the benefit of taking an RCR course, but preferred online
training. We did not make any changes to our report based on his response.
                                      Recommendations
        Based on the evidence, we recommend NSF:
       • Send the Subject a letter of reprimand notifying him that NSF has made a
finding of research misconduct. 34
       • Require the Subject to certify. to the Assistant Inspector General for
Investigations (AlGI) his completion of a responsible conduct of research training
program and provide documentation of the program's content within 1 year of NSF's
finding. 35 The instruction should be in an interactive format (e.g., an instructor-led
course) and specifically include plagiarism.
        For a period of 1 year as of the date of NSF's finding:
       ·Require the Subject to submit a contemporaneous certification to the AlGI,
for each document (proposal, report, etc.) to which the Subject contributes for
submission to NSF (directly or through his, or another's, institution), that the
document does not contain plagiarism, falsification, or fabrication. 36




   33 Tab 10
   34 A Group I action 45 C.F.R. 689.3(a)(l)(i)
   35 This action is similar to Group I actions 45 C.F.R. 689.3(a)(l).
   36 This action is similar to 45 C.F.R. 689.3(a)(l)(iii).




                                                                                      7
                                 NJITfOI'TACS-CrENCE-FOUNDATION
                                      4201 WILSON BOULEVARD
                                     ARLINGTON, VIRGINIA 22230




                                                                               MAR 17 Z014
      OFFICE OF THE
     .. DIRECTOR




CERTIFIED MAIL --RETURN RECEIPT REQUESTED




       Re:      Notice of Research Misconduct Determination


Dear Dr. . .




                      As documented in the attached Investigative Report prepared by NSF's
Office oflnspector General (OIG), this proposal contained plagiarized material.

Research Misconduct and Proposed Sanctions

Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification, or
plagiarism in proposing or performing research funded by NSF ... " 45 CFR 689.l(a). NSF
defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
without giving appropriate credit." 45 CFR 689.1 (a)(3 ). A finding of research misconduct
requires that:

       (1) There be a significant departure from accepted practices of the relevant research
           community;
        (2) The research misconduct be committed intentionally, or knowingly, or recklessly;
            and
        (3) The allegation be proven by a preponderance of evidence.

45 CFR 689.2(c).

Your proposal to NSF contained substantial copied material: 115 lines of text and two tables
copied from eleven different sources. Your submission of proposal with substantial copied
                                                                                             Page2
material constitutes plagiarism and meets the applicable definition of "research misconduct" set
forth in NSF's regulations.

Pursuant to NSF's regulations, the Foundation must also determine whether to make a finding of
misconduct based on a preponderance of the evidence. 45 CFR689.2(c). After reviewing the
Investigative Report, including your University's findings, NSF has determined that, based on a
preponderance of the evidence, your plagiarism was committed knowingly and constituted a
significant departure from accepted practices of the relevant research community. I am,
consequently, issuing a finding of research misconduct against you.

NSF's regulations establish three categories of actions (Group I, II, and III) that can be taken in
response to a finding of misconduct. 45 CFR 689.3(a). Group I actions include issuing a letter
of reprimand; conditioning awards on prior approval of particular activities from NSF; requiring
that an institution or individual obtain special prior approval of particular activities from NSF;
and requiring that an institutional representative certify as to the accuracy of reports or
certifications of compliance with particular requirements. 45 CFR 689.3(a)(l). Group II actions
include award suspension or restrictions on designated activities or expenditures; requiring
special reviews of requests for funding; and requiring correction to the research record. 45 CFR
689 .3(a)(2). Group III actions include suspension or termination of awards; prohibitions on
participation as NSF reviewers, advisors or consultants; and debarment or suspension from
participation in NSF programs. 45 CFR 689.3(a)(3).


In determining the severity of the sanction to impose for research misconduct, I have considered
the seriousness of the misconduct, the impact on the research record, and the determination that
it was knowing. I have also considered other relevant circumstances. 45 CFR 689.3(b).

After assessing the relevant facts and circumstances of this case and NSF's regulations, I am
taking the following actions:

   •   Within one year of the date of this notice, you must complete a responsible conduct of
       research training program, for which the instruction should be an interactive format (e.g.,
       an instructor-led course) and which specifically includes plagiarism. You must provide
       documentation of the program's content and proof of its completion to the OIG; and
   •   For a period of one year from the date of this notice, you are required to submit
       certifications to the OIG that any proposal or report you submit to NSF as a Principal
       Investigator (PI) or co-PI does not contain plagiarized, falsified or fabricated material.

All certifications and assurances should be submitted in writing to NSF's Office of Inspector
General, Associate Inspector General for Investigations, 4201 Wilson Boulevard, Arlington,
Virginia, 22230.
--   _,_   - - - - - - - - - - - - - - - - - - - - -

                                                                                                              age 3
              Procedures Governing Apoeals

              Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal ofthis
              finding, in writing, to the Director of the Foundation. 45 CFR 689.10(a). Any appeal should be
              addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
              Arlington, Virginia 22230. If we do not receive your appeal within the 30-day period, the
              decision on the finding of research misconduct will become finaL

              For your information, we are attaching a copy ofthe
              any questions about the foregoing, please contact                                          at
              (703) 292-8060.



                                                                    Sincerely,
                                                                             I
                                                                  ~:;}iu-11i.t1ld-llt£r
                                                              c~-
                                                              -     Fae Korsmo
                                                                    Senior Advisor to the Director



              Enclosures:
              Investigative Report
              45 CFR Part 689
